 




      AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

     COOPERATIVE AGREEMENTS ADMINISTERED BY

    GIRLS EDUCATIONAL AND MENTORING SERVICES

                NEW YORK, NEW YORK 





             U.S. Department of Justice 

           Office of the Inspector General 

                    Audit Division 



             Audit Report GR-70-12-004 

                     March 2012





 
 


               AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

              COOPERATIVE AGREEMENTS ADMINISTERED BY 

             GIRLS EDUCATIONAL AND MENTORING SERVICES 

                         NEW YORK, NEW YORK


                               EXECUTIVE SUMMARY 


       The U.S. Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of four cooperative agreements
awarded by the Office of Justice Program’s (OJP) Office of Juvenile Justice
and Delinquency Prevention (OJJDP) and Office for Victims of Crime (OVC) to
Girls Educational and Mentoring Services (GEMS).1 These grants included:
(1) Grant 2006-AH-FX-K001 – FY 2006 Child Protection Division
Continuations, and its supplement, FY 2007 Prevention and Intervention
Programs, (2) Grant 2009-SN-B9-K064 – FY 2009 Recovery Act Internet
Crimes Against Children (ICAC) Task Force Training and Technical Assistance
Grants, (3) Grant 2009-MC-CX-K043 – Improving Community Response to
the Commercial Sexual Exploitation of Children (CSEC), and (4) Grant
2009-SZ-B9-K011 – FY 2009 Recovery Act – National Field-Generated
Training, Technical Assistance, and Demonstration Projects.2 Collectively,
these awards totaled $1,510,837 in OJP funding.

      The objective of our audit was to determine whether expenditures
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants. We also assessed GEMS’ program performance in
meeting the grants’ objectives and overall accomplishments.

      We determined that GEMS was not in full compliance with all of the
essential grant conditions we tested. We found unsupported personnel
expenditures and fringe benefit charges, as well as other non-personnel and
non-fringe benefit expenditures. We also identified an internal control
shortcoming associated with GEMS’ contractor monitoring, and Recovery Act
reporting. As a result of these conditions, we questioned $708,253 in
unsupported costs and made multiple management improvement
recommendations.

       1
          Cooperative agreements are used when the awarding agency expects to be
substantially involved with the award’s activities. We refer to cooperative agreements in
this report as grants.
       2
          According to OJP’s CSEC grant solicitation, CSEC includes various crimes of a
sexual nature committed against victims younger than 18, primarily or entirely for financial
or other economic reasons.
         
                                                
                                             -i-
                                                
 



     These items are discussed in further detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix II.

       We discussed the results of our audit with GEMS officials and have
included their comments in the report, as applicable. Additionally, we
requested a written response to our draft report from GEMS and OJP, and
their responses are appended to this report as Appendix III and IV,
respectively. Our analysis of both responses, as well as a summary of the
actions necessary to close the recommendations can be found in Appendix V
of this report.




                                      
                                   -ii-
                                      
 


                                   TABLE OF CONTENTS


INTRODUCTION .......................................................................1 

Office of Justice Programs ............................................................2 

Office of Juvenile Justice and Delinquency Prevention .......................3 

Office for Victims of Crime ............................................................3 

Child Protection Division Continuation Program................................4 

Improving Community Response to the Commercial 

  Sexual Exploitation of Children ...................................................4 

American Recovery and Reinvestment Act ......................................4 

Recovery Act Internet Crimes Against Children Task Force Training 

   and Technical Assistance Grants ................................................5 

Recovery Act National Field-Generated Training, Technical Assistance, 

   and Demonstration Projects ......................................................5 

Girls Educational and Mentoring Services........................................6 

Our Audit Approach .....................................................................7 


FINDINGS AND RECOMMENDATIONS........................................9

Internal Control Environment .......................................................9

Personnel and Fringe Benefit Expenditures.................................... 10 

Other Grant Expenditures .......................................................... .14

Drawdowns ............................................................................. .15

Budget Management and Control................................................. 16

Monitoring Contractors ............................................................. .17

Reporting................................................................................ .18 

Compliance with Award Special Conditions .................................... 22 

Accountable Property................................................................. 23 

Program Performance and Accomplishments ................................. 23

Conclusions .............................................................................. 27

Recommendations..................................................................... 27 


APPENDIX I - SCHEDULE OF DOLLAR-RELATED FINDINGS...... 28

APPENDIX II - OBJECTIVES, SCOPE, AND METHODOLOGY ...... 29

APPENDIX III - GIRLS EDUCATIONAL AND MENTORING 

   SERVICES RESPONSE TO THE DRAFT AUDIT REPORT ....... 31 

APPENDIX IV - OFFICE OF JUSTICE PROGRAMS RESPONSE 

   TO THE DRAFT AUDIT REPORT ......................................... 36

APPENDIX V – OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT .................................................... 39





 
 


                                   INTRODUCTION

       The U.S. Department of Justice (DOJ) Office of the Inspector General,
Audit Division, has completed an audit of four cooperative agreements
awarded by the Office of Justice Program’s (OJP) Office of Juvenile Justice
and Delinquency Prevention (OJJDP) and Office for Victims of Crime (OVC) to
Girls Educational and Mentoring Services (GEMS).3 These grants included:
(1) Grant 2006-AH-FX-K001 – FY 2006 Child Protection Division
Continuations, and its supplement, FY 2007 Prevention and Intervention
Programs, (2) Grant 2009-SN-B9-K064 – FY 2009 Recovery Act Internet
Crimes Against Children (ICAC) Task Force Training and Technical Assistance
Grants, (3) Grant 2009-MC-CX-K043 – Improving Community Response to
the Commercial Sexual Exploitation of Children (CSEC), and (4) Grant
2009-SZ-B9-K011 – FY 2009 Recovery Act – National Field-Generated
Training, Technical Assistance, and Demonstration Projects.4 Collectively,
these grants totaled $1,510,837 in OJP funding.

      The Child Protection Division Continuations program and its
supplement provided funds to conduct a public service campaign called
“Break the Silence,” to raise consciousness in New York on the issue of
commercial sexual exploitation. With its supplement, GEMS wanted to
advance its present program practices of direct services to CSEC victims
along with CSEC training and support for institutions. GEMS hoped to
accomplish this by fostering improvements in service delivery with an
emphasis on documenting and refining successful prevention and
intervention strategies with CSEC victims.

       The Internet Crimes Against Children Task Force Training and
Technical Assistance grant provided GEMS with Recovery Act funds for
training and technical assistance to ICAC Task Forces in an effort to increase
the capacity of members to effectively combat interrelated forms of the
CSEC program, including internet-facilitated crimes against child victims.

       The Improving Community Response to CSEC grant provided funds to
GEMS for training and technical assistance to four communities nationwide
to increase and improve the capacity of these communities to develop and


       3
          Cooperative agreements are used when the awarding agency expects to be
substantially involved with the award’s activities. We refer to cooperative agreements in
this report as grants.
       4
          According to OJP’s CSEC grant solicitation, CSEC includes various crimes of a
sexual nature committed against victims younger than 18, such as forced prostitution,
primarily or entirely for financial or other economic reasons.  


                                           - 1 - 
 
 


implement programs and services for commercially sexually exploited and
domestically trafficked girls and young women.

       The National Field-Generated Training, Technical Assistance, and
Demonstration Projects grant provided funds for demonstration projects,
training and technical assistance programs, and for training and special
workshops designed to present and disseminate crime victim-related
information.

       The objective of our audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the awards. We also assessed GEMS program performance in
meeting grant objectives and overall accomplishments. The following table
shows the total funding for each award as well as the associated project
start and end dates.

                    GEMS Office of Justice Program Awards
                                                 Project End    Award
            Grant            Award Date             Date       Amount
    2006-AH-FX-K001          09/29/2006          03/31/2007    $ 100,000
      Supplement              08/30/2007          03/31/2010     500,000
    2009-SN-B9-K064           08/25/2009          01/31/2012     250,000
    2009-MC-CX-K043           09/22/2009          02/28/2012     275,000
    2009-SZ-B9-K011           08/31/2009          02/28/2012     385,837
    Total                                                      $1,510,837
        Source: Office of Justice Programs

Office of Justice Programs

       The Office of Justice Programs (OJP), within the U.S. Department of
Justice, provides the primary management and oversight of the awards we
audited. OJP’s website stated that it provides innovative leadership to
federal, state, local, and tribal justice systems, by disseminating state-of-the
art knowledge and practices across America, and providing grants for the
implementation of these crime fighting strategies. Because most of the
responsibility for crime control and prevention falls to law enforcement
officers in states, cities, and neighborhoods, the federal government can be
effective in these areas only to the extent that it can enter into partnerships
with these officers. Therefore, OJP does not directly carry out law
enforcement and justice activities. Instead, OJP works in partnership with
the justice community to identify the most pressing crime-related challenges


                                             - 2 - 
 
 


confronting the justice system and to provide information, training,
coordination, and innovative strategies and approaches for addressing these
challenges

Office of Juvenile Justice Delinquency and Prevention

      The Office of Juvenile Justice Delinquency and Prevention (OJJDP),
within the OJP, provides management and oversight to three of the four
grants we audited. OJJDP’s stated mission is to provide national leadership,
coordination, and resources to prevent and respond to juvenile delinquency
and victimization.

       OJJDP attempts to accomplish its mission by supporting states, local
communities, and tribal jurisdictions in their efforts to develop and
implement effective programs for juveniles. OJJDP strives to strengthen the
juvenile justice system's efforts to protect public safety, hold offenders
accountable, and provide services that address the needs of youth and their
families. Through its components, OJJDP sponsors research, program, and
training initiatives; develops priorities and goals and sets policies to guide
federal juvenile justice issues; disseminates information about juvenile
justice issues; and awards funds to states to support local programming.

Office for Victims of Crime

      The Office for Victims of Crime (OVC), within OJP, provides
management and oversight to one of the four grants we audited. OVC’s
stated mission says it works to enhance the nation’s capacity to assist crime
victims and to provide leadership in changing attitudes, policies, and
practices to promote justice and healing for all victims of crime.

      The Crime Victims Fund (the Fund) was established by the 1984
Victims of Crime Act (VOCA). The Fund supports programs that significantly
impact the lives of more than 4.2 million crime victims each year. Since its
inception, the Fund has been supported by fines, penalty assessments, and
bond forfeitures collected from convicted federal offenders, not tax dollars.
In 2001, legislation passed which allows the Fund to also receive gifts,
donations, and bequests from private entities. OVC distributes money
deposited into the Fund directly to states to support state compensation and
assistance services for victims and survivors of domestic violence, sexual
assault, child abuse, drunk driving, homicide, and other crimes.

      VOCA funds attempt to support a broad array of programs and
services that focus on helping victims in the immediate aftermath of crime
and supporting them as they rebuild their lives. Although the specific type


                                     - 3 - 
 
 


of outreach provided varies by need and location, the common goal of OVC
and VOCA is to reach out with a compassionate, skilled, and effective
response to victims who have suffered physical, sexual, emotional, and
financial harm as a result of crime.

Child Protection Division Continuation Program

      The FY 2006 Child Protection Division Continuation Program provides
funding to delinquency intervention and prevention programs, victim
intervention programs, system improvement programs, and research child
delinquency and victimization programs. Grant 2006-AH-FX-K001 and its
supplement was funded under this program.

Improving Community Response to the Commercial Sexual
Exploitation of Children

       The Improving Community Response to the Commercial Sexual
Exploitation of Children program (CSEC Program) is authorized by the
Juvenile Justice and Delinquency Prevention Act of 1974, as amended
(42 U.S.C. 5771 et seq.). The purpose of the FY 2009 CSEC Program is to
support selected communities in combating CSEC, including youth under the
age of 18, by improving training and coordination activities within the
community. According to OJP’s CSEC grant solicitation, CSEC includes
various crimes of a sexual nature committed against victims younger than
18, such as forced prostitution, primarily or entirely for financial or other
economic reasons. OJJDP assists participating communities in developing
policies and procedures to identify CSEC victims, adopting best practices for
addressing CSEC, and completing a needs assessment. The needs
assessment is intended to identify and fill gaps in local service provision to
victims, such as mental and physical health services and temporary shelter.
Grant 2009-MC-CX-K043 was funded under this program.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.


                                     - 4 - 
 
 



       OJJDP awarded funds under the Recovery Act to assist state and local
law enforcement agencies in developing effective responses to: (1) online
enticement of children by sexual predators, (2) child exploitation, and
(3) child obscenity and pornography cases. Furthermore, OJJDP Recovery
Act grant programs provided training and technical assistance to law
enforcement officers, prosecutors, forensic analysts, and other related
professionals to increase their skills sets and make them more employable in
child exploitation units.

Recovery Act Internet Crimes Against Children Task Force Training
and Technical Assistance Grants

        The Internet Crimes Against Children (ICAC) Task Force Training and
Technical Assistance Grants were funded by the Recovery Act of 2009 (Public
Law 111-5) and the Providing Resources, Officers, and Technology to
Eradicate Cyber Threats to Our Children Act of 2008 (Public Law 110-401,
the “Protect Act”). Through its FY 09 Recovery Act ICAC Task Force Training
and Technical Assistance Grants program, OJJDP intended to identify training
providers to serve the ICAC Task Force Program. The ICAC Task Force
Program supports a national network of 59 multi-agency, multi-jurisdictional
task forces engaged in investigations, forensic examinations, and
prosecutions related to Internet crimes against children. Additionally, the
task forces provide forensic and investigative technical assistance to law
enforcement and prosecutorial officials, as well as community education
information to parents, educators, prosecutors, law enforcement, and others
concerned with child victimization. The state and regional ICAC task forces
work collaboratively as a national network of law enforcement and
prosecutorial agencies that prevent, interdict, and investigate technology-
facilitated child sexual exploitation and Internet crimes against children.

      The purpose of the ICAC Training Program was to provide training to
ICAC task forces and other federal, state, and local law enforcement
agencies in the areas of investigations, forensics, prosecution, community
outreach, and capacity-building, using recognized experts to assist in the
development and delivery of training programs. Grant 2009-SN-B9-K064
was funded under this program.

Recovery Act National Field-Generated Training, Technical
Assistance, and Demonstration Projects

     The National Field-Generated Training, Technical Assistance, and
Demonstration Projects were funded by the Recovery Act of 2009 (Public
Law 111-5). Projects funded under this solicitation are authorized by


                                    - 5 - 
 
 


section1404(c)(1)(A) and (c)(3)(E)(ii) of the Victims of Crime Act of 1984
which provides funding for demonstration projects, training and technical
assistance services for eligible victim assistance programs, and for training
and special workshops designed to present and disseminate crime victim-
relevant information.

       All initiatives under this program, whether related to training, technical
assistance, or development of promising practices, models, and programs,
were to be focused on improving the capacity of victim service providers and
allied practitioners in advancing rights and services for crime victims in the
following areas: elder abuse, sexual assault, victim restitution, child abuse,
youth victimization (including cybercrime victimization), victim services in
corrections settings, stalking, the implications of forensic technologies for
victims, and training and technical assistance on crime victims’ rights. Grant
2009-SZ-B9-K011 was funded under this program.

Girls Educational and Mentoring Services

       Girls Educational and Mentoring Services’ (GEMS) mission is to
empower girls and young women, ages 12-21, who have experienced
commercial sexual exploitation and domestic trafficking to exit the
commercial sex industry and develop to their full potential. According to
GEMS’ website, the organization is committed to ending commercial sexual
exploitation and domestic trafficking of children by changing individual lives,
transforming public perception, and revolutionizing the systems and policies
that impact sexually exploited youth. GEMS was formed in 1998 by a young
woman who had been sexually exploited herself as a teenager and now
serves as its Executive Director. GEMS described itself as one of the largest
providers of services to commercially sexually-exploited and domestically
trafficked youth in the U.S.

      GEMS provides a variety of programs to approach the issue of sexual
exploitation. These programs are: prevention and outreach, intervention,
youth development, educational initiatives, transitional and supportive
housing, court advocacy, alternative to incarceration program, and family
court program. GEMS also provides training and technical assistance to
organizations and institutions, which in turn provide their staff with the
knowledge and tools to understand and address commercial sexual
exploitation and domestic trafficking of children and youth. GEMS receives
50 percent of its operational funding from government grants (federal, state,
and local) and 50 percent from private donations.




                                      - 6 - 
 
 


Our Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the grants. Unless otherwise stated in our report,
we applied the Office of Justice Programs (OJP) Financial Guide as our
primary criteria during our audit. The OJP Financial Guide serves as a
reference manual assisting award recipients in their fiduciary responsibility
to safeguard grant funds and ensure that funds are used appropriately and
within the terms and conditions of awards. Additionally, the OJP Financial
Guide cites applicable Office of Management and Budget (OMB) and Code of
Federal Regulations (CFR) criteria that we also considered in performing our
audit. We tested GEMS’:

      	 Internal control environment to determine whether the financial
         and accounting system and related internal controls were adequate
         to safeguard grant funds and ensure compliance with the terms and
         conditions of the grants.

      	 Personnel and fringe benefit expenditures to determine
         whether the personnel and fringe benefit expenditures charged to
         the grants were allowable, supported, accurate, and whether
         positions were within approved grant budgets.

      	 Grant expenditures to determine whether the costs charged to
         the grants were allowable and adequately supported. 

      	 Drawdowns (requests for grant funding) to determine whether
         requests for reimbursement, or advances, were adequately
         supported, and if GEMS managed grant receipts in accordance with
         federal requirements.

      	 Budget management and control to determine whether GEMS
         adhered to the OJP-approved award budgets for the expenditure of
         grant funds.
          
     	 Monitoring of contractors to determine whether GEMS had taken
         appropriate steps to ensure that contractors complied with grant
         requirements. 
       
      	 Reporting to determine whether the required periodic Federal
         Financial Reports, Progress Reports, and Recovery Act Reports were
         submitted on time and accurately reflected grant activity.
          




                                    - 7 - 
 
 


     	 Compliance with award special conditions to determine
        whether GEMS complied with all of the terms and conditions
        specified in the individual grant award documents.

     	 Accountable property to determine whether GEMS had
        procedures for controlling accountable property, and whether the
        property was included in its inventory and identified as purchased
        with federal funds.
         
     	 Program performance and accomplishments to determine
        whether GEMS achieved grant objectives, and to assess
        performance and grant accomplishments.

      Where applicable, we also tested for compliance in the areas of
indirect costs, matching funds, program income, and monitoring of
subgrantees. For these grants, we determined that GEMS charged no
indirect costs, matching funds were not required, the grant-funded programs
generated no program income, and there were no subgrantees.




                                   - 8 - 
 
 


                  FINDINGS AND RECOMMENDATIONS

       COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

       We determined that GEMS was not in full compliance with all
       of the essential grant requirements in the areas we tested for
       all four awards. We found internal control weaknesses in the
       following areas: (1) personnel and fringe benefit
       expenditures, (2) grant expenditures, (3) contractor
       monitoring, and (4) Recovery Act reporting. As a result of
       these weaknesses, we questioned $708,253 in unsupported
       expenditures. These conditions, including the underlying
       causes and potential effects on the OJP programs, are further
       discussed in the body of this report.

Internal Control Environment

      GEMS had an internal control system in place to safeguard funds and
assure they are used solely for authorized purposes. However, our review of
internal controls specific to the areas we examined disclosed some instances
where the established internal control system was not always operating as
intended.

      We began this audit by reviewing GEMS’ accounting and financial
management system to assess the organization’s risk of non-compliance
with laws, regulations, guidelines, and the terms and conditions of the
grants. We also interviewed management staff from the organization,
performed transaction testing, and reviewed financial and performance
reporting activities to further assess the risk.

      According to the OJP Financial Guide, award recipients are responsible
for establishing and maintaining an adequate system of accounting and
internal controls. An acceptable internal control system provides cost and
property controls to ensure optimal use of funds. Award recipients must
adequately safeguard funds and assure they are used solely for authorized
purposes.

      While our audit did not assess GEMS’ overall system of internal
controls, we did review the internal controls of GEMS’ financial management
system specific to the administration of DOJ funds during the periods under
review. Specifically, we determined that while GEMS had written internal
control procedures to govern the use of federal funds, it did not ensure that
controls in place were working as intended. Specifically, GEMS did not
establish an adequate methodology to allocate personnel and fringe benefit


                                    - 9 - 
 
 


expenditures; failed to maintain adequate supporting documentation for
non-personnel and non-fringe benefit grant expenditures; and did not
develop processes for evaluating contractor’s performance. From our review
and testing, we concluded that these conditions contributed to
noncompliance with some grant requirements. These internal control
deficiencies that we identified are discussed in detail later in this report. The
absence of an adequate and effectively functioning internal control
environment undermines the ability of the recipient to ensure that federal
funds are adequately safeguarded and spent accurately and properly in
accordance with the grant objectives. In our opinion, GEMS management
should correct the internal control deficiencies we identified.

Personnel and Fringe Benefit Expenditures

      In general, GEMS correctly ensured that the gross payroll amounts
from the timesheets we tested were in accordance with the approved
budget. In addition, we determined that, excluding the Executive Director,
the remaining GEMS staff members’ timesheets that we tested had sufficient
evidence of supervisory approval. We also found that the personnel and
fringe benefit charges we tested from the accounting system were within the
amounts approved by OJP in the grant budget. However, GEMS did not
have an adequate process in place to document the allocation of each staff
member’s actual activity charged to the grants. As a result, we could not
determine if the personnel and fringe benefit expenditures charged to the
grants were properly allocated to the grants. Consequently, we questioned
$578,664 in personnel expenditures and $126,160 in fringe benefits as
unsupported for all four grants.

      2 C.F.R. § 230, formerly known as OMB Circular A-122, requires that
personnel charges to awards be supported by personnel activity reports.
Specifically, the guidance states that charges to awards for salaries and
wages, whether treated as direct costs or indirect costs, will be based on
documented payrolls approved by a responsible official of the organization.
The guidance goes on to say that the distribution of salaries and wages to
awards must be supported by personnel activity reports.

       Moreover, the CFR requires that the personnel activity reports should
account for an employee’s total activity and the portion of the activity
charged to the award. Additionally, the reports should: reflect an after-the-
fact distribution of the actual activity of each employee, account for the total
activity of each employee, be prepared at least monthly, coincide with one
or more pay periods, and be signed by the employee. These reports should
also be reviewed and approved on a regular basis by a supervisory official
having first-hand knowledge of the work performed. The approving official


                                     - 10 - 
 
 


could document the review and approval by signing or initialing each
employee’s time and/or effort report.

      GEMS officials provided us with a list of personnel and fringe benefit
expenditures totaling $331,162 for grant 2006-AH-FX-K001, $126,824 for
grant 2009-SN-B9-K064, $120,238 for grant 2009-MC-CX-K043, and
$126,600 for grant 2009-SZ-B9-K011.5 For the four OJP grants, we tested a
judgmental sample of personnel and fringe benefit expenditures during two
non-consecutive pay periods. The following table shows a breakdown of the
personnel and fringe benefit expenditures we tested.

              Summary of Personnel and Fringe Benefit

                      Expenditures Tested 

          Grant         Staff       Personnel          Fringe
                     Members      Expenditures       Benefits
    2006-AH-FX-K001      16             $ 11,032           $2,134
    2009-SN-B9-K064       8                 3,504           1,324
    2009-MC-CX-K043       7                 4,235           1,890
    2009-SZ-B9-K011       7                 4,260           1,831
    Total                               $23,031           $7,179
       Source: OIG analysis

      We tested a sample of expenditures to determine if personnel and
fringe benefit expenditures were charged correctly in accordance with the
budget, properly authorized, accurately recorded, and properly allocated in
GEMS’ accounting system. To determine if the personnel expenditures were
charged correctly, we compared the gross amount from the payroll register
to the budget-approved salary per pay period. To determine if personnel
expenditures were properly authorized, we reviewed grant funded staff
member timesheets for evidence of supervisory approval. To determine if
the personnel expenditures were properly recorded, we verified that
amounts from GEMS’ accounting system matched the grant budgeted
amounts. To determine if personnel expenditures were properly allocated,
we reviewed the staff members’ timesheets and GEMS allocation
spreadsheet. To determine if fringe benefits were correctly computed, we
recalculated the fringe benefit expenditures for each of the pay periods we
tested by multiplying the amount allocated to the grants for each staff
member by the approved budgeted percentage. To determine if fringe
benefits were consistent amongst staff members, we compared the amounts
charged for each staff member. Finally, to determine if fringe benefits were
       5
         For the 2006 grant, we tested four non-consecutive pay periods because GEMS did
not provide the accounting records for the original grant until after we selected our sample
and performed personnel testing.
        


                                          - 11 - 
 
 


properly charged to the grant, we compared the approved budget for fringe
benefits to the amounts charged in GEMS’ accounting system.

       From our testing, we determined that personnel and fringe benefit
expenditures were charged correctly in accordance with the grant budget,
and the expenditure amounts tested from the accounting system also
matched the grant budget. We also found that, excluding the Executive
Director, the remaining GEMS staff members’ timesheets that we tested had
sufficient evidence of supervisory approval. However, from our testing we
found the Executive Director’s timesheets did not show evidence of
supervisory approval. According to GEMS, the Board of Directors is
responsible for approving the Executive Director’s timesheets. A GEMS
official told us that it is sometimes difficult to obtain approval for the
Executive Director’s timesheets because the Board of Directors is not on site.
In our judgment, to remain in compliance with the fiscal requirements of the
OJP Financial Guide, GEMS must ensure that personnel expenditures are
approved by a responsible official of the organization for all staff including
the Executive Director. The lack of approved timesheets increases the risk
of GEMS abusing federal funds by funding unauthorized grant expenditures.

       In addition, we were unable to determine if all of the personnel
expenditures we tested were properly allocated. GEMS, in its approved
grant budgets, was specific about the percentage of staff time to be spent on
grant-specific tasks. GEMS used timesheets to document time worked per
pay period for all staff. GEMS officials told us that the original timesheet
was most likely modeled after a generic non-profit timesheet and GEMS did
not understand the importance of using the program column to allocate time
spent on grant-specific activities.6 Consequently, the GEMS’ Fiscal Manual,
we were told, did not require staff to fill-in the program column as part of
the payroll process. According to a GEMS official, during a 2009 Recovery
Act training, GEMS learned that the program column on its timesheet was
insufficient to properly allocate staff time because there was more than one
funding source for the activities being performed.7

       GEMS also maintained an allocation spreadsheet to document the
effort/time spent on grant related activities. An allocation spreadsheet can

       6
          In its response, GEMS stated that this statement from its official was never meant
to imply that GEMS does not understand the importance of allocating time towards specific
programs and their corresponding sources of funding. GEMS further explained that the
comment was meant to explain that GEMS did not feel the program column fit the purpose
it needed to serve in order to be in compliance.
       7
          In its response, GEMS stated that the program column was never designed to
allocate staff time and effort to specific contracts.  


                                           - 12 - 
 
 


be used as a substitute for an activity report if it met all the requirements
outlined in the OJP Financial Guide. GEMS used the allocation spreadsheet
to ensure that it remained within the approved budgeted percentage of time
for each staff member for a particular grant. However, the allocation
spreadsheet did not show actual activity worked in a given time period for a
specific grant as required by the OJP Financial Guide. According to a GEMS
official, GEMS paid close attention to the percentages being charged to the
grants on a larger scale; making sure it does not exceed the approved
budgeted percentages for each staff member at year/project end. In
addition, GEMS conducted quarterly meetings with Program Directors and
other staff to review the allocation spreadsheet to ensure that allocations
properly represented the work performed by each staff member and were
consistent with the approved budget.

       We reviewed GEMS’ allocation spreadsheet and found it inadequate to
support the allocation of personnel costs charged to the grants because it
did not meet certain criteria listed in the OJP Financial Guide. Specifically,
the allocation spreadsheet was not based on actual activities performed by
the staff. Instead it was based on budgeted percentages; it was prepared
quarterly, not at least monthly; it was not signed by the employee; and
there was no evidence that it was reviewed or approved by a supervisory
official.

       In May 2011, GEMS told us that it was in the process of implementing
an online allocated timesheet system as part of the current payroll system.
GEMS expected the online allocated timesheet system to replace its paper
timesheets over the summer of 2011. GEMS told us that the new allocated
timesheet will require staff to enter the hours worked on a particular project
daily then calculate the percentage of time spent on a particular project. In
addition, the new automated timesheet was expected to be prepared bi-
weekly and signed by the staff member and supervisory officials. We did not
test the new automated timesheet system because it was not fully
implemented at the time of our field work. However, based on what we
were able to observe about the new system, it appears that the new
timesheet may meet the requirements of an activity report as outlined in the
OJP Financial Guide provided the system is fully implemented and works as
intended.

     Our audit identified questioned costs of $578,664 in unsupported
personnel expenditures and $126,160 in unsupported fringe benefit
expenditures for all four grants. Because the calculation of fringe benefit
expenditures are based directly on personnel expenditures as either a
percentage or fixed amount for each staff member based on time spent
working on the grants, we determined fringe benefit expenditures were not


                                    - 13 - 
 
 


adequately supported. The chart below itemizes the amount and type of
questioned costs charged to each grant as of March 31, 2011.

                Summary of Personnel Expenditures
                and Fringe Benefit Questioned Costs
                     Personnel        Fringe
      Grant        Expenditures      Benefits                          Total
2006-AH-FX-K001         $ 272,800      $ 58,362                       $ 331,162
2009-SN-B9-K064           103,727         23,097                        126,824
2009-MC-CX-K043            98,281         21,957                        120,238
2009-SZ-B9-K011           103,856         22,744                        126,600
Total                   $578,664       $126,160                       $704,824
      Source: GEMS accounting records and OIG analysis

Other Grant Expenditures

      In general, we found that GEMS properly recorded in the accounting
records the non-personnel and non-fringe grant expenditures we tested.
Specifically, we selected 134 non-personnel and non-fringe benefit
expenditure transactions totaling $142,867 for detailed review and analysis
from all four grants combined. To determine if the other grant expenditures
were properly recorded, we verified that amounts from GEMS’ accounting
system matched the budgeted amounts. To determine if expenditures were
allowable, we compared the expenditures to the award budget, permissible
uses of funds outlined in the OJP Financial Guide, and the terms and
conditions of the awards. To determine if expenditures were supported, we
reviewed purchase documents, invoices, and accompanying accounting
system data.

      GEMS created separate cost centers within their accounting system to
segregate and specifically track expenditures made under each of the
grants. GEMS officials provided us with a transaction list of grant-funded
non-personnel and non-fringe benefit expenditures totaling $204,265 for
grant 2006-AH-FX-K001, $27,214 for grant 2009-SN-B9-K064, $49,848 for
grant 2009-MC-CX-K043, and $23,638 for grant 2009-SZ-B9-K011. The
primary transactions included expenditures for travel, supplies, and other
expenditures.8 We tested a judgmental sample of 134 invoices totaling
$142,867, or 47 percent of non-personnel and non-fringe benefit funds
expended as of November 2010.




      8
         Other expenditures consisted of: office space, public service announcement
production, furniture, computers, IT consulting, and DVD production.


                                         - 14 - 
 
 


       After sampling 134 transactions for all four grants combined, we found
no evidence of unallowable expenditures; however, we identified
unsupported expenditures of $3,429 for grant 2006-AH-FX-K001. These
unsupported expenditures included costs associated for supplies, travel, and
a public service announcement production. According to a GEMS Official, the
lack of supporting documentation for these transactions occurred because of
a 2006 office move, high rate of staff turnover at the time, and a lack of
sufficient quantity of personnel which made it difficult to compile files from
the organization’s earlier years. In our view, when expenditures are
unsupported, it could increase the risk of fraud, waste, and abuse of federal
funds. GEMS has since begun to scan all supporting documentation and
cancelled checks to ensure that both electronic and hard copies are kept for
future reference.

      During our review of the non-personnel expended for grants
2009-SN-B9-K064, 2009-MC-CX-K043, and 2009-SZ-B9-K011, we found
that all transactions were properly supported. Because GEMS was able to
provide supporting documentation for the FY 2009 sampled transactions, we
do not believe that what happened in the FY 2006 grant is
systemic throughout GEMS grant management practices. However, we do
recommend that OJP remedy the $3,429 in questioned costs.

Drawdowns

      We found GEMS’ drawdown process to be adequate in minimizing the
time lapse between the drawdown of funds and disbursement of those
funds. As of May 16, 2011, GEMS has made drawdowns for the following
grants:

                        Total Drawdowns
                              Amount
             Grant                                    Total Award
                           Drawndown
        2006-AH-FX-K001      $600,000                   $600,000
        2009-SN-B9-K064      $205,092                   $250,000
        2009-MC-CX-K043      $212,641                   $275,000
        2009-SZ-B9-K011      $200,364                   $385,837
            Source: Office of Justice Programs

       The OJP Financial Guide establishes methods by which the Department
of Justice makes payments to grantees. According to the Guide, grant
recipients should request funds based on immediate disbursement/
reimbursement requirements. It also states that recipients should time their
drawdown requests to ensure federal cash on hand is the minimum needed
for disbursements/reimbursements to be made immediately or within 10


                                        - 15 - 
 
 


days. Nonprofit organizations shall account for interest earned on federal
funds and may keep up to $250 per federal fiscal year.

        To determine if drawdowns were completed in advance or on a
reimbursement basis, we interviewed grant officials, analyzed bank
statements, and reviewed documentation in support of actual expenditures.
We determined that grant funds were requested on a reimbursement basis
in all instances except one. In April 2008, GEMS had cumulative
expenditures of $275,321 and cumulative drawdowns of $278,856 for grant
2006-AH-FX-K001. This resulted in excess cash on hand of $3,534.
However, GEMS had incurred expenditures to cover drawdowns within 20
days. We calculated interest on this amount based on prevailing market
rates and found it to be less than $1. Because we found no evidence GEMS
requested advance funding more than once in our evaluation of drawdowns,
and the amount of interest we calculated on the excess cash on hand to be
immaterial, we did not report this as an issue. In addition, we determined
that drawdowns were requested based on actual expenditures and did not
exceed grant expenditures in most instances. As a result, we found that
GEMS’ drawdown procedures were adequate for these grants and complied
with grant requirements.

Budget Management and Control

      The OJP Financial Guide addresses budget controls surrounding
grantee financial management systems. According to the Financial Guide,
grantees are permitted to make changes to their approved budgets to meet
unanticipated program requirements. However, the movement of funds
between approved budget categories in excess of 10 percent of the total
award must be approved in advance by the awarding agency. In addition,
the Financial Guide requires that all grantees establish and maintain an
adequate system for accounting and internal controls. The following table
summarizes the budgets for each grant by category.




                                   - 16 - 
 
 


                    Budgets of OJP Grants Awarded to GEMS
                    2006-AH-      2009-SN-        2009-MC-   2009-SZ-   Total Per
      Category      FX-K001       B9-K064         CX-K043    B9-K011    Category
    Personnel      $ 259,050     $ 136,159       $ 133,370   $ 183,273 $  711,852
    Fringe            54,249        36,896          36,806      41,210    169,161
    Travel             6,000        21,254          26,199      64,810    118,263
    Equipment         22,629             0               0           0     22,629
    Supplies          13,000         3,441          17,137       6,621     40,199
    Contractual       50,447        33,729          19,510      54,352    158,038
    Other            194,625        18,521          41,978      35,571    290,695
    Total          $600,000      $250,000        $275,000    $385,837 $1,510,837
         Source: Office of Justice Programs

       According to a GEMS official, GEMS reviewed expenditures during
monthly reconciliations to ensure that expenditures stayed within the
approved budget for each award. In addition, GEMS retained copies of OMB
Circulars, OJP fiscal training documents, and created internal documents
outlining federal fiscal requirements to ensure compliance with the budget
management requirements. A GEMS official said packets were created
explaining special requirements, due dates, and other important information
pertaining to each grant and these packets were distributed to staff.

      We compared the total expenditures by budget category from the
GEMS accounting system to the budget categories established by OJP’s final
budget revision for each of the four grants. We found that GEMS
expenditures were within the allowable 10 percent deviation allowance for
grant 2006-AH-FX-K001 and its supplement. While grants
2009-SN-B9-K064, 2009-MC-CX-K043, and 2009-SZ-B9-K011 were still in
progress at the time of our audit, GEMS remained within the approved
allowance for each of the grants. Based on the documentation we reviewed,
it appears GEMS monitored its grant expenditures and submitted budget
modifications and GANs. For each grant, we also found evidence of an
ongoing budget versus actual expenditure comparison.

Monitoring of Contractors

      We determined that GEMS has not conducted any evaluations of the
contractors being funded with grant funds and, therefore, does not
adequately monitor its grant-funded contractors. According to 28 C.F.R. §
70.47, GEMS must maintain a system for contract administration to ensure
contractor conformance with the terms, conditions, and specifications of the
contract and to ensure adequate and timely follow up of all purchases.
Recipients must evaluate contractor performance and document, as
appropriate, whether contractors have met the terms, conditions, and


                                              - 17 - 
 
 


specifications of the contract. According to GEMS, three consultants were
paid with grant funds which supported two of the three OJJDP grants and the
OVC grant.
       
      We received and reviewed GEMS’ contractor procurement procedures,
which conform to OMB Circulars A-122 and A-110 and 28 C.F.R. § 70.47.
However, we found that GEMS was unable to show proof of implementation
of one part of these procedures, specifically adequate contractor monitoring.
We concluded that it did not perform contractor evaluations as required.
GEMS staff stated that it did not evaluate contractor performance because it
lacked the capacity to do so. In our opinion, without an adequate contractor
monitoring process, GEMS cannot ensure that contractors are conforming to
contract terms and conditions and that federal funds used to pay contractors
are used for the intended purposes.

Reporting

Federal Financial Reports

      The financial aspects of OJP grants are monitored through Federal
Financial Reports (FFRs).9 According to the OJP Financial Guide, FFRs should
be submitted within 30 days of the end of the most recent quarterly
reporting period. Even for periods when there have been no program
outlays, a report to that effect must be submitted. Funds or future awards
may be withheld if reports are not submitted or are excessively late.

      For the four awards we reviewed, GEMS officials told us they
completed the FFRs using their quarterly expense reports. We tested the 4
most recent FFRs for each grant by comparing the expenditures reported on
the FFRs to GEMS’ quarterly expense reports and concluded that each of the
16 reports was accurate.

      We also tested each FFR for timeliness using the criteria noted above
and found GEMS submitted 11 of its 16 FFRs within the time period specified
by OJP. We found 5 reports were submitted 2-13 days late, but we
considered this lateness immaterial. Because each of the FFR’s we tested
was accurate and submitted in a timely manner, we concluded GEMS met
OJP’s financial reporting standards.


       9
          Effective for the quarter beginning October 1, 2009, grant recipients must report
expenditures online using the Federal Financial Report (FFR-425) Form no later than 30
days after the end of each calendar quarter. The final report must be submitted no later
than 90 days following the end of the grant period. These reports are no longer called
Financial Status Reports.


                                           - 18 - 
 
 


Progress Reports

      Progress reports provide information relevant to the performance of an
award-funded program and the accomplishment of objectives as set forth in
the approved award application. According to the OJP Financial Guide, these
reports must be submitted twice yearly, within 30 days after the end of the
reporting periods of June 30 and December 31, for the life of the award.

       For grant 2006-AH-FX-K001, we tested the timeliness of the four most
recent progress reports. For grants 2009-SN-B9-K064, 2009-MC-CX-K043,
and 2009-SZ-B9-K011, we tested the timeliness of the three most recent
progress reports because at the time of our audit, GEMS was only required
to submit three progress reports. For grant 2006-AH-FX-K001, we
determined that GEMS submitted one of the four progress reports on time.
The other three reports submitted late ranged from 32 to 214 days late.
GEMS officials said that two reports were submitted late because the
Development Director, who was responsible for submitting the progress
reports, was laid off. GEMS told us they have taken steps to ensure
accurate and timely submission of reports, should a staff member leave, by
implementing a succession plan and cross-training staff members.10 The
reason for the lateness of third report was because GEMS had not been
notified by OJJDP that the grant end date was extended. By the time GEMS
received notice that the grant end date was extended, the due date for the
progress report had already passed.

      For grants 2009-SN-B9-K064, 2009-MC-CX-K043, and
2009-SZ-B9-K011, we determined that six of the nine progress reports were
submitted on time. Three of the nine progress reports were submitted one
day late because the due date fell on a Sunday. Because the three late
reports were submitted only one day late, we did not consider the lateness
to be material. Because GEMS was on time with their 2009 grants, we do
not believe what occurred with the 2006 grant is systemic throughout GEMS’
grant management practices. Therefore, we did not report this as a finding.

      To measure the accuracy and completeness of the progress reports for
the four awards, we tested two reports per grant to determine if the reports
contained statistical data, included accomplishments related to the
program’s objectives, and accurately reported the data. We found the eight
progress reports we reviewed accurately described work accomplished to
meet the program’s objectives for each grant.

       10
          GEMS succession plan includes creating binders containing job descriptions,
contracts, due dates, important websites, and procedures for carrying out various duties. In
addition, GEMS has begun cross-training staff to prevent important tasks from not being
completed.


                                          - 19 - 
 
 



Recovery Act Reports

       In addition to the normal reporting requirements, grantees receiving
Recovery Act funding must submit quarterly reports which require both
financial and programmatic data. Reports are due within 10 calendar days
after the end of each calendar quarter, beginning with the July to September
2009 reporting period. As of October 10, 2009, these reports must also
include the cumulative activities and projects funded since the enactment of
the Recovery Act, or February 17, 2009. Recipients that received recovery
funds from a federal agency are required to submit these reports to that
agency, which should contain the following information:

    	 the total amount of recovery funds received from that agency;

    	 the amount of recovery funds received that were expended or 

       obligated to projects or activities; and 


    	 a detailed list of all projects or activities for which recovery funds were
       expended or obligated, including: the name of the project or activity, a
       description of the project or activity, an evaluation of the completion
       status of the project or activity, an estimate of the number of jobs
       created and the number of jobs retained by the project or activity, and
       detailed information on any subcontracts or subgrants awarded by the
       recipient.

      Grants 2009-SN-B9-K064 (OJJDP) and 2009-SZ-B9-K011 (OVC) were
the only grants covered under the provisions of the Recovery Act. GEMS
generally submitted quarterly Recovery Act reports on time with all of the
required information. We reviewed the submitted Recovery Act Reports for
both accuracy and timeliness. Between July 2009 and September 2010,
GEMS was required to submit 5 Recovery Act Reports for each grant and we
found that GEMS submitted 7 of the 10 reports on time. We found three
reports were submitted 2 to 13 days late but we considered this lateness
immaterial.

       According to the criteria listed above, GEMS was required to report the
total amount of recovery funds received, the amount of recovery funds that
were expended or obligated to this project, and a detailed list of all projects
for which recovery funds were expended or obligated. No subgrantees were
paid with Recovery Act funds. We determined that GEMS reported on all of
the required information for the five quarters we reviewed.




                                      - 20 - 
 
 


       We reviewed the accuracy of four quarters of Recovery Act Reports
from October 2009 to September 2010 for both grants. At the time we
began our review, the report which covered October to December 2010 was
not due until January 30, 2011. Therefore, we reviewed the four quarters
before this period. For both grants, we found that GEMS’ accounting records
matched the amount reported as expended for the period on the Recovery
Act Reports that were submitted to OJJDP and OVC. However, we found full
time equivalent (FTE) calculation errors in three of the four Recovery Act
Reports GEMS submitted to OJJDP and two of the four reports submitted to
OVC. As stated above, an estimate of the number of jobs created and the
number of jobs retained by the project or activity is required to be reported
in these reports. According to OJP’s website, the DOJ has developed various
guidance documents and tools to assist Recovery Act recipients in meeting
their reporting requirements. One of these tools is the “jobs calculator”.11
We used the jobs calculator to verify the information GEMS reported to
OJJDP and OVC. After inputting the information into the jobs calculator, we
found differences in the FTEs GEMS reported in three of the four reports for
OJJDP and two of the four reports for OVC. The following tables show the
differences found.

                         OJJDP Grant 2009-SN-B9-K064
                                 Jobs Created
    FTE Comparison               per Quarterly         OIG FTE          (Over)/Under
     Report Periods                Reports            Calculation         Reported
October-December 2009                     0.19               0.51                0.32
January-March 2010                        6.32              1.035              (5.29)
April-June 2010                           6.00               0.85              (5.15)
July-September 2010                       1.15               1.15                0.00
       Source: GEMS accounting records and OIG analysis

                           OVC Grant 2009-SZ-B9-K011
                                 Jobs Created
    FTE Comparison               per Quarterly         OIG FTE          (Over)/Under
    Report Periods                 Reports            Calculation         Reported
October-December 2009                     0.88               0.90                0.02
January-March 2010                        5.32               0.93              (4.40)
April-June 2010                           5.00               0.74              (4.26)
July-September 2010                       1.49               1.48                0.01
       Source: GEMS accounting records and OIG analysis

       11
          The jobs calculator is a template recipients can use to obtain an FTE calculation.
The jobs calculator is a suggested method for calculating the number of created and
retained jobs.


                                           - 21 - 
 
 



      In January 2010, GEMS notified OJJDP of the 0.32 error in the first
report and was advised to include the number in the next quarter’s report.
GEMS reported an additional 0.32 in the January 2010 to March 2010
quarter. For the second and third quarters of the OJJDP and the OVC
reports, GEMS reported each position as one full FTE, even though only
partially funded.

       GEMS agreed that the information reported was not accurate in the
above mentioned instances. As of April 2011, GEMS had made OJJDP and
OVC aware of the errors and was awaiting guidance from both agencies on
how to handle the issue. Since Recovery Act activity is available to the
public and the Congress, significant reporting errors can skew the resulting
effect of the Recovery Act on the Nation’s economic recovery.

      As mentioned earlier in this report, we were unable to determine if
personnel expenditures were properly allocated to the grants. Absent an
adequate allocation methodology, we could not certify that the GEMS
personnel reported in the Recovery Act reports actually worked on Recovery
Act grant-related activities. However, GEMS has plans to institute a new
allocated timesheet system which would calculate the percentage of time
spent on a particular project. GEMS officials said it will begin
implementation of this system by the summer of 2011. In our opinion, the
new allocated timesheet may reflect the time a staff member spends on
grant-related activities provided the system is fully implemented and works
as intended.

Compliance with Award Special Conditions

      Award special conditions are included in the terms and conditions for
each award and are provided in the accompanying award documentation.
The special conditions may also include special provisions unique to the
award. We reviewed the special conditions found in the award documents
and the accompanying adjustment notices for the four awards and found
that GEMS did not fully comply with a special condition specific to Recovery
Act reporting requirements. This special condition was associated with the
calculation of FTEs for reporting jobs created with Recovery Act grant
funding. The details of these exceptions are discussed under the Reporting
section of this report. We found noncompliance with this special condition
for Recovery Act grants 2009-SN-B9-K064 (OJJDP) and 2009-SZ-B9-K011
(OVC).




                                    - 22 - 
 
 


Accountable Property

      The OJP Financial Guide states that grantees are required to be
prudent in the acquisition and management of property acquired with federal
funds. The guide also states that grantees must establish an effective
system for property management.

       GEMS officials told us that technical purchases were reviewed and
authorized by GEMS Senior Management. We reviewed documentation
supporting five pieces of equipment GEMS purchased with federal funds that
met the accountable property criteria.12 We reviewed the five pieces of
equipment and found that the equipment was properly marked as purchased
with federal funds, used as shown in the grant, physically present and
verifiable, and included on a GEMS inventory list. We concluded that GEMS
was in compliance with the accountable property standards.

Program Performance and Accomplishments

Grant 2006-AH-FX-K001 and its supplement

       According to the program narrative, the goals of this grant and its
supplement were to create awareness about GEMS mission and services
within the youth-serving community; serve as the leading resource and best
practice model for education on sexual exploitation; attract greater
resources and support for GEMS work; raise public awareness of sexual
exploitation and change public perception; improve and refine current service
delivery to CSEC victims; improve current data collection and outcome
measurement systems and utilize improvements to develop a promising
practice document; advance knowledge base on promising practices in
intervention to CSEC victims for child protection and the juvenile justice
field; and increase the capacity of youth serving institutions and agencies to
effectively intervene with CSEC victims.

      GEMS submitted several Data Collection Technical Assistance Tool
(DCTAT) reports. According to OJP’s website, the DCTAT helps grantees
compile performance data and make sure it is in the correct format for
submission to OJP through the GMS system. The DCTAT report is submitted
in addition to the progress reports. We reviewed the data GEMS provided on
its DCTAT report and progress reports. Although our assessment of
performance and accomplishments is limited to the data we reviewed, we
concluded that GEMS collected appropriate data, analyzed the data, and

      12
          GEMS policy states that technical purchases of more than $1,000 would be
considered accountable property.


                                         - 23 - 
 
 


provided us with evidence demonstrating that the goals and objectives of
the grant were achieved.

Grant 2009-SN-B9-K064

       According to the program narrative, the goal of this grant was to
provide training and technical assistance to ICAC Task Forces to increase the
capacity of members to effectively combat interrelated forms of CSEC,
including internet-facilitated crimes against child victims, while preserving
and creating jobs for economic recovery. GEMS measured progress towards
achieving these goals and objectives through an independent evaluator
which assessed the impact of training and technical assistance across the
sites and produced an evaluation report. The evaluation contained three
parts, including a pre-test (tested the knowledge and skills of the CSEC
before the training), post-test (tested the knowledge and skills of CSEC after
the training), and overall test (which was to evaluate the training, the
effectiveness of the trainer, and other areas).

       As of February 2011, GEMS stated it had provided training to four
sites, which we verified, and planned to provide the fifth training in June
2011. In addition, GEMS stated they had created three jobs: a training and
technical assistance director, training and technical assistance manager, and
a bookkeeper, and maintained one position, a special projects coordinator.

      Although our assessment of performance and accomplishments is
limited to the data we reviewed, we concluded that GEMS collected
appropriate data, analyzed the data, and provided us with evidence
demonstrating that GEMS is on track to achieving the goals and objectives
by the end of the grant period in July 2011.

Grant 2009-MC-CX-K043

      According to the program narrative, the goal of this grant was to
provide training and technical assistance to four communities selected by
OJJDP to increase the capacity of those communities to effectively address
the commercial sexual exploitation of children through a coordinated
community response. Even though the original goal of the grant was to
provide training and technical assistance to four communities, budget issues
allowed OJJDP to fund only three locations. Between January 2010 and June
2010, GEMS had already met the goals and objectives outlined in the
program narrative. They did this by providing training and technical
assistance to three sites.




                                    - 24 - 
 
 


       As stated above, GEMS measured progress towards achieving this
grant’s goals and objectives by using the same independent evaluator as
grant 2009-SN-B9-K064. The independent evaluator assessed the impact of
training and technical assistance across the sites and produced a report. We
reviewed copies of the evaluations from all three sites and found an increase
in the participants’ level of knowledge of the subject matter.

       GEMS achieved the goals of the grant by conducting the three
trainings and submitting a change of scope to OJJDP to accomplish more
work with the remaining grant funds and time. Although our assessment of
performance and accomplishments is limited to the data we reviewed, we
concluded that GEMS collected appropriate data, analyzed the data, and
provided evidence demonstrating that the goals and objectives were
achieved and, in addition to those goals, planned to deliver the following by
the end of the grant period in February 2012:

    	 Hire a graphic design consultant to reformat the CCIP training manual
       so that it is more comprehensive, accessible, and refined. Project
       evaluations conducted under this project will be used to inform these
       services.

    	 In conjunction with OJJDP, GEMS will propose and implement content
       updates based on research and discussions. GEMS will deliver to
       OJJDP a report on activities and accomplishments related to this
       deliverable.

    	 A consultant will be hired to assess and improve upon the training and
       technical assistance staff’s delivery of the curriculum, concentrating on
       methods of producing long-term learning and connecting with diverse
       audiences.

    	 Recognizing the CCIP curriculum as a foundation for effectively
       conducting work with victims, GEMS will train Youth Outreach Workers
       on the CCIP curriculum in order to create a wider pool of staff
       equipped to increase public awareness in terms of CSEC.

Grant 2009-SZ-B9-K011

      According to the program narrative, the goal of this grant was to
advance victims’ rights and services through the provision of training and
technical assistance to service providers on developing effective, survivor-
informed programmatic interventions for girls who have been victims of
commercial sexual exploitation and domestic trafficking, while preserving
and creating jobs for economic recovery.


                                     - 25 - 
 
 



       GEMS planned to ensure that these goals and objectives are met
through an independent evaluator that assessed the impact of training and
technical assistance GEMS provided across the sites. The evaluation will
have three parts to it including a pre-test (tested the knowledge and skills of
the CSEC before the training), post-test (tested the knowledge and skills of
CSEC after the training), and overall test (which was to evaluate the
training, the effectiveness of the trainer, amongst other areas). When GEMS
provides training to an agency, an evaluation will be performed.

       Additionally, GEMS submitted its most recent version of the Survivor
Informed Training and Technical Assistance Manual in July 2010. In
addition, GEMS stated on their progress reports that it created two positions
(a training and technical assistance director and manager) and maintained
eight positions: an executive director, training Director, fiscal/administrative
director, contracts manager, bookkeeper, special projects coordinator, data
assistant, and administrative assistant.

      GEMS submitted a Grant Adjustment Notice (GAN) request for a six
month no-cost extension to OVC in May 2011 for this grant, which was
denied because there were errors within the justification statement of
request. OVC told us they will approve the no-cost extension when GEMS
submits the GAN without errors. OVC also agreed that GEMS will need six
more months to accomplish the outlined program objectives, and the new
project end period would be February 2012. Although our assessment of
performance and accomplishments is limited to the data we reviewed, we
concluded that GEMS collected appropriate data, analyzed the data, and
provided evidence demonstrating that the goals and objectives of this grant
would be achieved by the end of the proposed grant period in February
2012.

Program Sustainability for all Grants

       According to GEMS, it is always difficult to maintain funding to support
its programs. However, GEMS believes that with the federal grants received,
it has established itself at the forefront of the CSEC issue and will continue
to provide community education, which hopefully will lead to more individual
donors. In addition, GEMS informed us of plans to secure funding from
agencies that they did not charge for services in the past. GEMS believes it
will be able to move forward with its mission even in difficult financial times.

      We are reporting on what GEMS told the audit team and we made no
assessment on program sustainability. However, from our collective audit
work, we believe that the absence of OJP grant funding could potentially


                                     - 26 - 
 
 


disrupt and impair the ability of GEMS to furnish ongoing training and
technical assistance at the same level currently provided.

Conclusions

      GEMS did not fully comply with all of the grant requirements we
tested. We found internal control weaknesses in GEMS’ grant expenditures,
monitoring of contractors, and Recovery Act reports.

       We found that GEMS charged $708,253 to the awards for grant
expenditures that were unsupported. In addition, we found GEMS has not
conducted any evaluations of contractor performance. Lastly, we found
significant reporting errors in the calculation of FTEs which were submitted
on the Recovery Act reports.

Recommendations

We recommend that OJP:

     1. Remedy $578,664 in unsupported personnel expenditures and
        $126,160 in unsupported fringe benefit charges.

     2. Remedy $3,429 in unsupported non-personnel and non-fringe
        benefit grant expenditures.

     3. Ensure that GEMS' Board of Directors implements procedures to
        demonstrate authorization of the executive director's timesheets.

     4. Ensure that GEMS acquire the capacity and implement procedures to
        perform evaluations of contractor performance and conduct those
        evaluations in a timely manner.

     5. Ensure GEMS has implemented and adheres to procedures that will
        result in the accurate submission of Recovery Act reports.




                                    - 27 - 
 
                                                                          APPENDIX I

                                                                                     


                SCHEDULE OF DOLLAR-RELATED FINDINGS


QUESTIONED COSTS:                                        AMOUNT               PAGE

Unsupported Expenditures – personnel                         $ 578,664            10

Unsupported Expenditures – fringe                            $ 126,160            10
benefits

Unsupported Expenditures – non-                                 $ 3,429           15
personnel and non-fringe benefits

TOTAL OF QUESTIONED COSTS:                                  $ 708,253

TOTAL DOLLAR-RELATED FINDINGS:                              $ 708,253



Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.




                                         - 28 - 
 
               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether reimbursements
claimed for costs under grant 2006-AH-FX-K001 and its supplement, grant
2009-SN-B9-K064, grant 2009-MC-CX-K043, and grant 2009-SZ-B9-K011
were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and the terms and conditions of the grants. We also
assessed grantee program performance in meeting grant objectives and
overall accomplishments. The objective of our audit was to review activities
in the following areas: (1) internal control environment, (2) personnel and
fringe benefit expenditures, (3) non-personnel and non-fringe benefit grant
expenditures, (4) drawdowns, (5) budget management and control,
(6) contractor monitoring, (7) reporting, (8) compliance with grant
requirements, (9) accountable property, and (10) program performance and
accomplishments. We determined that program income, matching costs,
indirect costs, and the monitoring of subgrantees were not applicable to
these grants.

      We conducted this performance audit in accordance with Generally
Accepted Government Auditing Standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provided a
reasonable basis for our findings and conclusions based on our audit
objectives.

      In conducting our audit, we performed sample testing in five areas:
personnel expenditures and fringe benefit charges, non-personnel and non-
fringe benefit grant expenditures, Federal Financial Reports, Progress
Reports, and Recovery Act Reports. In this effort, we employed a
judgmental sampling design to obtain broad exposure to numerous facets of
the grants reviewed, such as dollar amounts or expenditure category. This
non-statistical sample design did not allow projection of the test results to
the universes from which the samples were selected.

      We audited the Office for Office of Juvenile Justice and Delinquency
Prevention grant 2006-AH-FX-K001 and its supplement, grant
2009-SN-B9-K064, and grant 2009-MC-CX-K043 and the Office for Victims
of Crime grant 2009-SZ-B9-K011. The grantee had a total of $600,000 in
requests for grant funding for grant 2006-AH-FX-K001 and its supplement,
$205,092 for grant 2009-SN-B9-K064, $212,641 for grant 2009-MC-CX-
K043, and $200,364 for grant 2009-SZ-B9-K011 in requests for grant
funding through May 2011. Our audit concentrated on, but was not limited
to, the award of the original grant in April 2006, through May 2011.


                                    - 29 -
 
 



      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide, the Code of Federal Regulations, and grant award documents.

      In addition, we assessed the grantee’s monitoring of contractors;
reviewed the timeliness and accuracy of Federal Financial Reports, Progress
Reports, and Recovery Act Reports; and evaluated performance to grant
objectives. However, we did not test the reliability of the financial
management system as a whole and reliance on computer based data was
not significant to our objective.




                                   - 30 - 
 
                                                                                                      APPENDIX III 



               GIRLS EDUCATIONAL AND MENTORING SERVICES 

                  RESPONSE TO THE DRAFT AUDIT REPORT 





    September IS, 20 II

    Thomas O. Puerzer
    Regional Audit Manager
    Philadelphia Regional Audit Office
    Office of the Inspector Gcncrnl
    U.S. Depanment of Justice
    701 Market Street. Suite 201
    Philadelphia, PA 19106


    Response 10: Drajl Audit Report. Audit ofthe Office ofJustice Programs Coopera/i,"(! Agreemenl.f
    Administered by Girls Educational and Men/oring Services New York. New York


    Dear Mr. Puer.-.cr,

    As of August 25. 201 I, Girls Ed ucational and Mentoring Setvices (GEMS) has bccn in receipt of your office' s
    draft audit report cited above. Having carefully revicwed thc con tents of the repon, we are issuing the following
    responses to )'Our recommendations on a recommendation by recommendation basis:

    Remed y Recommend alion J: The Office of the Inspector General (OIG) recommends the following: Remedy
    1578.664 in unsupported personnel expendil14res and 5115.160 in umupportedfringe benefil chargcs.

    CEMS ' Respo nse to Recommenda tion I : GEMS is in non·conculTCtlce with this recommendation. as we do
    not agree with the reasons the OIG has given for this recommendation. In order to tM:$1justify our non­
    concurrence, we wou ld like to refer to each of the reasons given within the draft audit report scpanltely:

    On page 10 orlhe draft repon, thc O[G noted that "GEMS generally correc/ly complllet!. properly a/llhori;;et!.
    and accllrale~v recordet! personnel expcndilllre.f and accompanyingfringe benefits chClrged 10 this gralll."
    GEMS appreciates Ihatlhe OIG has notcd the accuracy and compliancy of its policies and procedures for
    recording personnel e)(penditurcs, especially since the organi7..ation has taken great care in developing and
    implementing a syslem that is in compliance with documented federal fisca[ requirements. GEMS believes it is
    contradictory for the OIG to question all personnel and fringe e)[penditurcs charged to this grant when it agrees
    that GEMS' system for recording these c)[penditures is "generally correct."

    On the same page, the O[G seemingly goes against its previous statcment by attesting that "Gt:MS tiM not have
    an adequate prtx:ess in ploce (tJ doci/ment the allocation of each :"WJJmember'S acwof activity charged 10 Ihe
    gralll. ·' The DIG backs up this opinion by citing 2 C.F.R. § 230. which "reqll;re.f thot personnel charges 10
    a ....ards be supported by personnel aClivity reporls." During the audit, GEMS was not asked to show proof of
    personnel activity reports, but rather allocated timeshcets documenting the percentage of time each staff


                                ..          '"
                                                                       ,., .,
                                                                                                       " ' . w•• , ...... , .... ,
                                                                                                       ~ ·W   Y<Nk NY loolt
                                                                                                       1'''''~'
                                                                                                       ~'1
                                                                                                                       ...
                                                                                                            91, .... '0'
                                                                                                       - ' I < .......... "'~




                                                          - 31 -
 
 




      GE~S
      .,"
    member a!locatoo to specified contracts on a daily basis. Upon having been made aware orthis requirement
    while at an OlP Fiscal Conference 2009, GEMS began an extremely lime-consuming and difficult process of
    trying to create and implement an allocated timesheet system that accurately accounted for the organization's
    many different programs funding sources. This process involved extensive research, attending trainings and
    discussions with otht,.'f public organizations, including a conference call with the Office of the Chief Financial
    Officer. Not once during this process was GEMS able to obtain clear and consistent that would assist in creating
    a timeshcci that would fit its needs. Nevertheless, at the time of the audit, GEMS had managed to reach the final
    stages ofimplcmcnting its own allocated timeshcct system. This system was, as explained in the draft audit
    repon, reviewed with the OIG auditors. What GEMS did not know, however, was that the OIG would have
    accepted personnel activity reports as described by the e FR in place of these timesht:ets. Having not been made
    aware of this during either the OJP training in 2009 or the audit itself, the organiZation was not in a position to
    present these materials, which would have otherwise been made available.

    On page 12 of the draft audit report, the OIG details GEMS' allocation spreadsheet, which was used by the
    organization 10 chart Ihe actual average time and effort each staff member was pUlling towards each program
    and funding source. The OIG claims thai the allocation spreadsheet was inadequate for supporting the allocation
    of personnel costs because it " ... was nor based on aCfllal Clctil'Wes performed by the slClff, instead it was based
    on budgetcd percentages ..... This statement is not true. In fact, the reverse is true, as was explained several
    times to the auditors while they were both on and ofT-site: The allocations within GEMS' allocation spreadsheet
    have always been based on actual activities perfonnoo by staff. It is then that salary allocations arc assignoo to
    contracts according to the actual percentages calculllied- notthe other way around. We at GEMS feellhat
    perhaps there was a misunderstanding during the communication of this fact. We are attaching to this response
    email correspondence between our staff and Ihe DIG that was used to, at the OIG's request, further clarify the
    process described above in the days following the audit.

    GEMS would like to point out another misunderstanding ciled on page 12 of the draft audit report. It is here that
    the report states, "The official GEMS timesheet had a program column Ihat slaff members could lise 10 allocate
    time spenl on grant.specific aclivities. GEMS officials told lIS that Ihe original time.fheet was most likely
    modeled after a generic non·profit timesheet and it did not Imderstand the importance ofl~~ing the program
    column." The comment from GEMS officials mentioned in this quole has been misinterpreted. It was never
    meanllO imply that GEMS does not understand the importance of allocating time towards speci fic programs
    and thei r corresponding sources of funding. lfthis were the case, GEMS would nol take the care it does to
    accurately allocate staff time and effort across departments, programs, and funding sources, nor would it make
    sure to maintain separate fiscal accounts for each of its federal contracts. The comment cited above was meant
    to explain that GEMS did not fccl thc program column fit the purpose il needed to serve in order to be in
    compliance: The progrum column included in GEMS' original timesheets was never designed to allocate staff
    time and effort to specific contracts, but rather to specific programs, each of which were maintained by several
    different funding sources. Because programs at GEMS cannot be matched exclusively 10 any single source of
    funding, thc progmm column could not have been used to accurately "allocale rime spent on grant-specific
    activities" as was suggested in the draft audit report.



                                                                                                         ; 88 W• • , I." 'b~et
                                                                                                         New T",. NT lOOl'
        " II ,.      I."                         \    I.   , ., I ,     "        ·n,                     1, 2 91' W.." ...
          ,
         "" ,
              , ',,1 '. '"
                             "d   I   ."'         .
                                            ,I ' .'
                                                       "      .','
                                                                      , • .• ,
                                                                                       .,1
                                                                                         ,.   ,.,.       l tl n4 "14'0'
                                                                                                         www g~'" "..,. "'~




                                                                                 - 32 - 
 
 




      ,   ',.,.       ...     .,
    In conclusion, GEMS docs not reel that the arguments that have been set forth in favor orthis recommendation
    are based on accurate observations. In concurrence with the OIG's statement that GEMS' processes ror
    allocating personncl and rringe expenditures are "generally correct," GEMS docs in fact have the ability to
    produce personnel activity statt-moots. does follow a policy in which personnel allocations are based on actual
    activities, and docs understand the importance of allocating time towards grant-specific activitics. That said,
    GEMS recognizes that the OIG's opinions surrounding this finding were based upon an honest, detailed review
    orGEMS' infrastructure that was solely conducted for the purpose or upholding federal fiscal regulations. Thc
    finding has rcaffinncd for GEMS (hc importance of documenting staff time and effort according to separate
    funding sources, and GEMS will continue to enforce its allocated timesheet system whi le also conducting and
    documenting monthly personnel activity reports as described by 2 C.F.R. § 230. GEMS looks forward to
    receiving additional assis tance from the 010 and/or Ol P in ensuring that its new systt.'tn meets all federal
    requirements.

    Remedy R ecommendation 2: Office of the Inspector Genera[ (OIG) recommends the following: Remedy
    $3,419 ill unsupported non-personnel andfringe benefit grallt expenJilures.

    GEMS' Res ponse to Recommendation 2: GEMS is in non-concurrence with this recommend ation because we
    feci it goes against the rollowing statement made on page 15 of the draft audit report: "Beccmse GEMS was able
    to provide supporting doclIIJlentalion/or the FY1009 sampled trallSacliollS. we do not believe thut whal
    happened in the FY 2006 grant is systemic throughoZll GEMS grant management practices." Post 2006, GEMS
    n:medied the instances of supporting documentation being misplaced during office movcs and turnover by
    implementing the following policy acknowledged on page 15: "GEMS has since begun tOS,'{u1 (Ill .l"IIppor/ing
    documentation and cancelled checks to ensure Ihal both electronic and hard copies or/! kept/or /utllfe
    re/erences." The success of this policy is exhibited by the fact that no unsupported transactions were identified
    during the O[G's review of more recent contracts.

    [n rurther support of its argument, GEMS would like to reiterate the fact that supporting documentation for
    these items was collected and filed, as GEMS' fisca l policies and procedures strictly prohibit allocation of
    unsupported funds. Unfortunately, these documents were unavailable during the time of the audit due to, as is
    stated by the O [G on Page 20 of the draft audit rcport, "a 1006 office move. high rate o/stafJturnover at the
    time, and a lack o/slljJicielll perSOllllef' (GEMS would like to clarify that the "lack o/slIfficient personnef' does
    not refer to the capabilities of those on staff in 2006, but rather the quantitativc lack of personnel available to
    ensure abso lu te organizational capacity during tha t time).

    Finally, GEMS feels it is important to note the minutencss of the fi nd ing to which this recommendation
    pertains: The $3,429 questioned is allocated to the earliest of the four I;()ntracts covered in the draft report, and
    accounts for 2.4% orthe OTPS cllpcnditures ellamincd by the O[G.

    In conclusion, it is GEMS' opinion that this hones! mistake involving 2.4% of the OTPS ellpenditures clIamincd
    by the OIG, has already been remedied through successful implementation of new fiscal policies. What GEMS
    docs concur with, is t he OIG's declaration that, "we do IIOt believe that ....hat happened in the FY2006 grant is
    sy#emic thrtmgholll GEMS grant management practices." Since FY2006 GEMS has significantly improved its
                                                                                                           1'I8IW·,1 U'l""'k~'"

                      , ,,,                                                                                New    Yor~   NY 1003'


          ..
                  ,
                  ~   ...     ·,1. '.
                                        .,..
                                               ."
                                                    'I
                                                         t· •

                                                           , I,·
                                                                , ,    ...
                                                                      , ,
                                                                      _,     I   ••
                                                                                       ••   I.   ' ... ,
                                                                                                           111   ' n toe, ,''-
                                                                                                           211 116   ru"u.
                                                                                                           .." ... ",,"" \1kb.<l.y




                                                                                 - 33 - 
 
 




    fiscal systems by: updating its accounting software; hiring ncw fi seal starr; creating a new fisclli policies and
    procedures man ual that incorporates all federal fiscal guidelines; conducting internal audits; developing systems
    for helping all starr to properly allocate and track individual expenditures; holding fiscal meetings to review the
    status of contracts and enhance current procedures; and creating a variety oftool5 for conducting tasks such as
    measuring FTE's, reconciling contracts, and developing quarterly budget-to-actual reports.

    Rem ed y Recommendation 3: Office of the Inspector Gencrnl (OIG) recommends the following: Ensure Ilral
    GEMS· Board of Directors implements procedrlres to demonstrale aUllrorizution oftire execllli)'C director's
    timesheets.

    GEMS' Respo nse to Recommendation 3: G EMS concurs with this recommendation. Wh ile physical distance
    and conflicting schedules have prevented the Board of Directors from regularly signing the Executive Director's
    timcshccts in the past, GEMS has now impil.'JTlented systems for preventing this issue. Since the previous fiscal
    year, the Executive Director has been taking her timesheets to quarterly board meetings for review. In addition,
    the organization's new electronic timeshect system now allows the Board of Directors to approve timcsheets
    remotely. GEMS is confident that with these corrective actions in place, the Executive Director's timeshects
    will no longer go unauthorized.

    R emedy Recommendation 4: Office of the Inspector General (OIG) recommends the following: Ensure Ilrat
    GEMS acquires lhe capacity and implement procedUres to perform evohlUlion!l of contractor performance and
    conduct

    GE MS' Response to Recommendation 4: GEMS is in non-concurrence with this recommendation. As tht:
    OIG articulates on page 17 of its draft audit report, GEMS maintains written contractor procurement procedures
    that "conform to OMB Circular.\" A - 122 and A -110 and 28 G.F.R. § 70.47." Contrary to this statement
    however, the report claims that GEMS "did not perform contmt:tar evaluations as require(/."

    During th e audit, it became clear that GEMS and its OIG auditors had different interpretations of the 28 C.F.R.
    § 70.47 line that reads, "recipient.f must evaluate con/raclor performance." While the auditors expressed the
    opinion that these evaluations should be presented as fonnal written documents, GEMS would like to point out
    that the C.F.R. declares thaljudgmcnt of contractor perfonnance must only be documented "as appropriate."
    GEM S evaluates contractor perfonnance by following the C .F.R. mandate that organizations must "maintain a
    sy.ttem/or conlrru;t adminisfralion to ensure conlraClOr conformance with the terms, conditions, alld
    specificotions oftire contract." All written agreements between GEMS and its contractors/consultants clearly
    state the deliverables required in order for contractors to be paid, as well as the timeframe in which the
    contractors must carry out these dcliverables. GEMS' contractor procurement procedures prohibit GEMS from
    paying COntractors who have not met their delivcrnbles, a policy made aware to all external parties receiving
    service revenue from the organization. Additionally, GEMS documents approval of contractor services by
    stamping "Approved" on invoices prior to payment.

    If th e OIG is able to present GEMS wi th a concrete example of what they feel tI more adequate system for
    contractor evaluation would look like, GEMS will gladly consider implementing such a system. At the time of

                                                                                                       nMW .. 1U.. "" .....

                .",        . ... ,
                            .,.
                            "
                                   .." . ,'
                                    ,
                                              ...... .,'            ..                                 _ T a t NT lOUt
                                                                                                       1., n.1IDt h'
                                                                   '''''' ,.. ,
                                                                                                       l'lU.n .. to •
        •             ,.          ."'
                                                              ~.


                                                                                                       ......... g_m>·g;,10 "'9




                                                           - 34 - 
 
 




               <, e,       I·



    the audit, such an Cllample could not be produced, and GEMS and its auditors could only agree to disagree
    about the meaning behind 28 C.F.R , § 70.47. GEMS hopes that OJ P will be able to offer further clarification
    regarding contractor evaluations so that GEMS and its auditors can be on the same page in tenns of this
    requirement.

    In conclusion, GEMS maintains the opinion that its contractor procurement procedures, which were deemed
    compliant by the OIG's draft audit report, are satisfactory for meeting all C.F.R. requirements. While GEMS
    respects the opinion of the OIG, it disagrees with its auditors' interpretation ofthe C.F.R. language around
    contractor evaluations for th e following reason: By stating that evaluations must be documented "as
    appropriate," the C.F.R. does the opposite of stating that contractor evaluations must always be documented.

    Remedy Recommendation 5: Office of the Inspector General (OIG) recommends the following: Ensure
    GEMS has implemented and adheres to procedures that will result in the accurate submission of Recovery Act
    reports.

    GEMS ' Respo nse to Recommendation 5: GEMS is in non-concurrence with the OIG's recommendation for
    two reasons:

        1. At the lime of the audit, the errors in FTE calculations had already been discovered and addressed by
           GEMS staff. GEMS' OJP program officers were involved in correspondence surrounding the errors and
           how to prevent them in the future.
        2. Chapter 16 of the ARRA Reporting User Guide states that "under no circumstances CUll the FTE
           ca/cu/aliolls on the past reparzs be changed." Therefore, alteration to GEMS' reports containing
           inaccurate FTEs is currently impossible.

    GEMS would like to point out that errors in FTE calculations were prominent among ARRA grantees, and that
    the FTE Calculator mentioned in the draft audit report was created as a method fOf amending widespread
    confusion surroundin g how to calculate FTEs for this specific report. GEMS is grateful fo r th e Fl'E Calculator,
    and now uses it to ensure the accuracy of its FTEs prior to 1512 report submission. Upon examining GEMS'
    more recent 1512 reports, the OIG will find thai GEMS' FTE calculations have been consistently accurate.

    GEMS thanks the OIG for the opportunity to respond to this draft audit report. We are available to answer any
    questions regarding OUf requests for reconsideration, and remain ready and wi!ling to work with the OIG and
    Ol P to ensure ongoingcomplillnce with our federal contracts, for which we arc consistcntly grateful.




    Rachel Lloyd
    Founder and Executive Director



                                                                .,
                                                                                                       "uw.uI~"S~~e
                                                                                                       N·w f"' ~ Nf 100."
                                                        •• I-                                          'I7U.III"I"
                  "
                       ,        ,   "
                                        ,I   .".
                                                   I~            •••   I.   •• •   •
                                                                                                       2Un.1t ....
                                                                                                       -II'"""QIt""'"
                                                                                                                     tu.




                                                                - 35 - 
 
                                                                              APPENDIX IV


                       OFFICE OF JUSTICE PROGRAMS
                   RESPONSE TO THE DRAFT AUDIT REPORT


                                                 U.S. Department of Justice

                                                 Office of Justice Programs

                                                Office of Audit, Assessment, and Management



                                                Washington, D.C. 20531




September 21, 2011

MEMORANDUM TO:               Thomas O. Puerzer
                             Regional Audit Manager
                             Philadelphia Regional Audit Office
                             Office of the Inspector General

                              /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Office of Justice Programs,
                             Cooperative Agreements Administered by the Girls Educational
                             and Mentoring Services, New York, New York

This memorandum is in response to your correspondence, dated August 25, 2011, transmitting
the subject draft audit report for the Girls Educational and Mentoring Services (GEMS). We
consider the subject report resolved and request written acceptance of this action from your
office.

The report contains five recommendations and $708,253 in questioned costs. The following is
the Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For
ease of review, the recommendations are restated in bold and are followed by our response.

1. 	   We recommend that OJP remedy the $578,664 in unsupported personnel
       expenditures and $126,160 in unsupported fringe benefit charges.

       We will coordinate with GEMS to obtain documentation to support the $578,664 in
       personnel expenditures and the $126,160 in fringe benefit costs charged to cooperative
       agreement numbers 2006-AH-FX-K001, 2009-SN-B9-K064, 2009-MC-CX-K043, and
       2009-SZ-B9-K011. If adequate documentation is not provided, we will require that



                                            - 36 -
 
 

        GEMS return funds for any unsupported costs to the U.S. Department of Justice (DOJ),
        and submit revised Federal Financial Reports to remove those expenditures.

2. 	    We recommend that OJP remedy the $3,429 in unsupported non-personnel and
        fringe benefit grant expenditures.

        We will coordinate with GEMS to obtain documentation to support the $3,429 in non-
        personnel and fringe benefit expenditures charged to cooperative agreement number
        2006-AH-FX-K001. If adequate documentation is not provided, we will require that
        GEMS return the funds for any unsupported costs to DOJ, and revise their FFR to
        remove those expenditures.

3. 	    We recommend that OJP ensure that GEMS' Board of Directors implement
        procedures to demonstrate authorization of the Executive Director's timesheets.

        We agree with the recommendation. We will coordinate with GEMS to obtain a copy of
        procedures implemented by their Board of Directors to ensure that the Executive
        Director’s timesheets are properly authorized.

4. 	    We recommend that OJP ensure that GEMS acquire the capacity and implement
        procedures to perform evaluations of contractor performance and conduct those
        evaluations in a timely manner.

        We agree with the recommendation. We will coordinate with GEMS to obtain a copy of
        written procedures, developed and implemented, to ensure that performance evaluations
        of contractors are conducted in accordance with the OJP Financial Guide.

5. 	    We recommend that OJP ensure GEMS has implemented and adheres to
        procedures that will result in the accurate submission of Recovery Act reports.

        We agree with the recommendation. We will coordinate with GEMS to obtain a copy of
        written procedures, developed and implemented, to ensure that information reported on
        Recovery Act reports is accurate.    

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc: 	   Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management

        Jeffrey W. Slowikowski 

        Acting Administrator 

        Office of Juvenile Justice and Delinquency Prevention





                                            - 37 - 
 
 

    Marilyn Roberts
    Deputy Administrator
    Office of Juvenile Justice and Delinquency Prevention

    Christopher Holloway
    Grant Program Specialist
    Office of Juvenile Justice and Delinquency Prevention

    Joye E. Frost
    Acting Director
    Office for Victims of Crime

    James Cantrall
    Deputy Director
    Office for Victims of Crime

    Mary Atlas-Terry
    Grant Program Specialist
    Office for Victims of Crime

    Louise M. Duhamel
    Acting Assistant Director
    Audit Liaison Group
    Justice Management Division

    OJP Executive Secretariat
    Control Number 20111579




                                        - 38 - 
 
                                                                APPENDIX V



    OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY OF

              ACTIONS NECESSARY TO CLOSE THE REPORT 


       The OIG provided a draft of this audit report to the Girls Educational
and Mentoring Services (GEMS) and the Office of Justice Programs (OJP) for
review and comment. GEMS’ response is included as Appendix III of this
final report, and OJP’s response is included as Appendix IV. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Recommendation Number

     1. Resolved. OJP concurred with our recommendation to remedy the
        $578,664 in unsupported personnel expenditures and $126,160 in
        unsupported fringe benefit charges for the grants. OJP said in its
        response that it would coordinate with GEMS to remedy the $578,664
        in unsupported personnel expenditures and $126,160 in unsupported
        fringe benefit expenditures for the grants.

       In its response, GEMS disagreed with our recommendation.
       Specifically, GEMS stated that it is “contradictory for the OIG to
       question all personnel and fringe expenditures charged to the grant
       when it agrees that GEMS’ system for recording these expenditures is
       “generally correct.” In addition, GEMS stated that it was not made
       aware of the requirement for activity reports allocating appropriate
       amounts of personnel charges to multiple grants until a 2009 OJP
       Conference. GEMS further stated that, during the audit, it was not
       asked to provide personnel activity reports, but rather allocated
       timesheets. We considered these and related statements in GEMS’
       response and provide the following analysis and response.

       While our draft report did not contain contradictory statements, our
       conclusions about GEMS’ compliance with grant requirements may
       have been misinterpreted. On page 11 of the report, we detailed the
       personnel expenditure testing that we conducted and defined the
       context of the terms we used to describe GEMS’ compliance or non-
       compliance. However, to ensure that the report clearly describes the
       areas of compliance and their differences with the areas of non-
       compliance, we made clarifications to the body of the report to
       eliminate conclusions of GEMS’ compliance using defined terms.
       Instead, we provided detailed conclusions that thoroughly specify the
       scope and specificity of the statements identifying compliance with
       grant requirements.


                                    - 39 -
 
 



    Our draft and final audit report described the results of our testing and
    concluded that GEMS did not have an adequate process in place to
    document the allocation of each staff member’s actual activity charged
    to the grants. As a result, we questioned $578,664 in unsupported
    personnel expenditures and $126,160 in unsupported fringe benefit
    charges for the grants. When GEMS accepted the awards, it certified
    that it agreed to fully comply with requirements for personnel
    expenditures charged to the grants, including personnel activity
    reports when salaries apply to the execution of two or more grant
    programs, cost activities, project periods, and/or overlapping periods.
    However, GEMS stated in its response that it was not aware of this
    requirement until a 2009 OJP Conference. If GEMS was not clear
    about its responsibilities under the grant agreement, GEMS officials
    could have obtained additional guidance and training from OJP
    sufficient to ensure that it was adhering to the grant requirements.
    GEMS’ statement that it was unaware of the requirements until an OJP
    training conference in 2009 and until our audit was performed does
    not absolve GEMS of its responsibility to maintain documentation that
    supports the use of grant funding for personnel and fringe benefit
    expenditures in accordance with the terms and conditions of the grant
    awards.

    Further, GEMS also stated in its response that it was not asked to
    provide personnel activity reports, but rather timesheets documenting
    the percentage of time each staff member allocated to specific
    contracts on a daily basis. Multiple times during our field work and
    also at our exit conference, we requested from GEMS officials
    supporting documentation that showed the allocation of personnel and
    fringe benefit expenditures charged to the grants. In addition, on
    page 10 of the draft audit report, we referred to 2 C.F.R. Part 230
    (formerly known as OMB-Circular A-122), that requires personnel
    charges be supported by personnel activity reports. However, GEMS
    did not provide these reports in its written response. During our audit,
    GEMS only provided timesheets and payroll registers and never
    mentioned that it had any other type of documentation that would
    potentially satisfy this requirement. In addition, GEMS’ response
    inaccurately described our discussions regarding a new time tracking
    system. Specifically, the response states “this system, as explained in
    the report, was reviewed with the OIG auditors.” While the OIG was
    made aware of this new allocated timesheet system and received a
    copy of what the timesheet would look like, we did not perform any
    review or testing of this system because it was not implemented at the




                                  - 40 - 
 
 


    time of our audit. Therefore, we cannot ensure it was ever
    implemented or, if implemented, working as intended.

    In its response, GEMS also referred to page 12 of the audit report that
    discusses the allocation spreadsheet used. Specifically, our report
    states the spreadsheet “was not based on actual activities performed
    by the staff, instead it was based on budgeted percentages.” GEMS
    stated that this was incorrect, and that the allocations within GEMS’
    allocation spreadsheet were always based on actual activities
    performed by its staff. During our audit field work, GEMS staff stated
    that, “once budgets are approved by the government, the fiscal
    consultant is given the current approved budgets and the percentages
    from there.” In addition, we requested from GEMS multiple times
    during our field work and at our exit conference supporting
    documentation that showed that the allocation of personnel and fringe
    benefit expenditures charged to the grants was based on actual work
    performed. GEMS did not provide us with any of the supporting
    documentation we requested during fieldwork or at the exit
    conference, or in its response to the draft report that would support its
    response to our audit report. The email correspondence that GEMS
    cited in its response provided GEMS’ explanation but did not include
    any verifiable documentation that the amounts allocated were those
    actually worked by staff. For example, the hours worked according to
    the timesheets for each staff member could not be reconciled to the
    GEMS allocation spreadsheets.

    GEMS’ response also referred to page 12 of the audit report which
    states, “GEMS officials told us that the original timesheet was most
    likely modeled after a generic non-profit timesheet and GEMS did not
    understand the importance of using the program column.” GEMS said
    the OIG misinterpreted this information and that the comment from
    the GEMS official was not meant to imply that GEMS did not
    understand the importance of allocating time towards specific
    programs and the corresponding sources of funding. GEMS further
    stated in its response that the intention of its comment was to explain
    that it did not feel the program column fit the purpose it needed to
    serve in order to be in compliance. GEMS also stated in its response
    that it takes care to accurately allocate staff time and maintain
    separate accounts for each of its fiscal contracts. It appears that
    GEMS has interpreted our quote of the statement as an implication
    that GEMS did not take its grant management responsibilities
    seriously. We included the statement to provide GEMS officials’ views
    with regard to the program column on the timesheet. We do not offer
    any further interpretation or analysis of GEMS’ intention for this


                                  - 41 - 
 
 


    statement. However, in an effort to provide a fair and balanced
    report, we added to the relevant section of this final report the
    subsequent clarification GEMS provided in its response.

    Although GEMS’ response stated that it was aware that the program
    column on the timesheet in use was not adequate, during our audit
    GEMS was unable to provide any evidence of other measures or
    controls that were taken to ensure compliance with this particular
    grant award requirement under 2 C.F.R. Part 230 (formerly known as
    OMB-Circular A-122), that requires personnel charges to be supported
    by personnel activity reports.

    GEMS also said that the program column was never designed to
    allocate staff time and effort to specific grants, but rather to specific
    programs, each of which was maintained by several different funding
    sources. We modified this final report to clarify this point. Moreover,
    GEMS said that because its programs cannot be matched exclusively to
    any single source of funding, the program column could not have been
    used to accurately allocate time spent on grant-specific activities.
    While we recognize that GEMS’ programs may be funded by several
    funding sources, including DOJ grants, grantees must be able to
    separate costs for each grant. Therefore, GEMS should have tracked
    personnel time and effort for each grant, particularly for those
    employees that work on several different grants. Because GEMS did
    not adhere to this requirement, we provided this recommendation to
    remedy the associated costs.

    Finally, GEMS stated that the arguments set forth supporting this
    recommendation were based on inaccurate observations. However, as
    we discussed in the audit report and in this response, all of our
    conclusions are based on accurate and verifiable evidence. These
    costs were questioned because GEMS did not provide us with adequate
    personnel activity reports that contain the information required by the
    OJP financial guide, and because the Executive Director’s timesheets
    did not have evidence of supervisory approval. While GEMS stated in
    its response it had the ability to produce activity reports, we were not
    provided with any activity reports that adhered to the requirements of
    the OJP Financial Guide. None of the issues discussed in GEMS’
    response or the documents provided during our audit, have resolved
    these questioned costs.

    This recommendation can be closed when we receive evidence that
    OJP has appropriately remedied the $578,664 in unsupported




                                  - 42 - 
 
 


      personnel expenditures and $126,160 in unsupported fringe benefit
      charges.

    2. Resolved. OJP concurred with our recommendation to remedy the
       $3,429 in unsupported non-personnel expenditures for the grants.
       OJP said in its response that it would coordinate with GEMS to remedy
       the unsupported grant expenditures.

      In its response, GEMS disagreed with this recommendation and
      supported its position by referring to page 15 of the audit report that
      states, “because GEMS was able to provide supporting documentation
      for the FY 2009 sampled transactions, we do not believe what
      happened in the FY 2006 grant is systemic through GEMS grant
      management practices.” GEMS’ response also asserted that the
      unsupported amount is minute, represents an honest mistake, and has
      already been remedied through successful implementation of new
      fiscal policies. However, GEMS’ statements and conclusions failed to
      acknowledge that, in accepting the awards, it agreed to fully comply
      with requirements that required non-personnel and non-fringe benefit
      expenditures charged to the grants be supported. Moreover, the
      materiality of the amount of unsupported expenditures and the fact
      that new policies and procedures have been implemented does not
      relieve GEMS of its responsibility to maintain documentation that
      supports the use of grant funding for non-personnel and non-fringe
      benefit expenditures in accordance with the terms and conditions of
      the grant awards.

      This recommendation can be closed when we receive documentation to
      remedy these associated questioned costs.

    3. Resolved. OJP agreed with our recommendation to ensure that
       GEMS’ Board of Directors implements procedures to demonstrate
       authorization of the Executive Director's timesheets.

      GEMS concurred with our recommendation and said that its Board of
      Directors implemented procedures to authorize the Executive
      Director’s timesheets. GEMS stated that the Executive Director has
      been taking the timesheets to quarterly board meetings for review. In
      addition, GEMS said its new electronic timesheet system now allows
      the Board of Directors to approve timesheets remotely.

      This recommendation can be closed when we receive adequate 

      documentation demonstrating that these procedures have been 

      implemented. 



                                    - 43 - 
 
 



    4. Resolved. OJP agreed with our recommendation to ensure that
       GEMS acquire the capacity and implement procedures to perform
       evaluations of contractor performance and conduct those evaluations
       in a timely manner.

      In its response, GEMS disagreed with our recommendation and
      referred to page 17 of the audit report which states that it maintains
      written contractor procurement procedures that conform to “OMB
      Circulars A-122 and A-110 and 28 C.F.R.70.47.” GEMS stated that it
      has a different interpretation than the OIG of the requirement, which
      states “Recipients must evaluate contractor performance and
      document, as appropriate, whether contractors have met the terms,
      conditions and specifications of the contract.” GEMS said that it
      evaluates contractor performance by following the C.F.R. mandate to
      “maintain a system for contract administration to ensure contractor
      conformance with the terms, conditions, and specifications of the
      contract.” During audit field work, we asked GEMS if it has evaluated
      contractor performance and documented whether contractors have
      met the terms, conditions, and specifications of the contract. At that
      time, GEMS officials said they had not acquired the capacity to conduct
      formal evaluations of contractor performance. Moreover, GEMS has
      not since provided us with any documentation that it has a system in
      place to evaluate and document contractor performance.

      Additionally, GEMS said in its response that it disagrees with the OIG’s
      interpretation of the requirement which states that contractor
      evaluations must be documented “as appropriate.” However, the fact
      that the provision requires recipients to document, as appropriate,
      whether contractors have met the terms and conditions of the contract
      does not absolve GEMS of the responsibility to establish a system to
      evaluate contractor performance, which GEMS told us during our
      fieldwork it did not do. Further, 28 C.F.R.70.51 states that “Recipients
      are responsible for managing and monitoring each project, program,
      subaward, function or activity supported by the award.” Because an
      activity performed by a grant-funded contractor is considered a
      function or activity supported by the award, we believe GEMS is
      responsible for adequately managing and monitoring contract
      activities. However, we were not provided evidence of evaluations of
      contractor performance, and without documented evidence, we could
      not validate GEMS’ assertion that contractor performance was
      evaluated. As a result, we recommend that OJP work with GEMS to
      strengthen its contractor monitoring procedures.




                                    - 44 - 
 
 


      In addition, GEMS indicated in its response that our statement in the
      report that contractor procurement procedures were deemed
      compliant is contrary to the finding that is the basis for this
      recommendation. We found documentation of contractor procurement
      procedures that conform to C.F.R. requirements but did not find
      specific documentation of contractor performance evaluations. GEMS
      did not provide verifiable evidence that one part of these procedures
      had been implemented and was working as intended.. As we
      explained in our report, we spoke with GEMS officials about this issue
      and they offered an explanation as to why contractor performance was
      not evaluated: that GEMS lacked the capacity to do so. According to
      grant regulations, GEMS was required to perform these evaluations
      and did not do so. As a result, we maintain that GEMS should have
      performed contractor evaluations and made minor clarifications to this
      final report regarding this issue.

      Further, GEMS requested the OIG to provide a more concrete example
      of an adequate system for contractor evaluation. We conducted our
      audit in part to independently assess GEMS’ compliance with the terms
      and conditions of the awards it received. Our audit was not intended
      to provide prescriptive procedures or guidance to GEMS and we do not
      consider it appropriate to do so. Rather, GEMS should consult with
      OJP as the grant awarding component for guidance in the development
      and implementation of appropriate procedures that enhance internal
      controls and help to facilitate compliance with the award terms and
      conditions.

      This recommendation can be closed when we receive documentation
      demonstrating that these procedures have been implemented.

    5. Resolved. OJP agreed with our recommendation to ensure GEMS
       implements and adheres to procedures that will result in the accurate
       submission of Recovery Act reports.
         
       In its response, GEMS disagreed with our recommendation and
       supported its position by saying that at the time of the audit, the
       errors in the Full Time Equivalent (FTE) calculations had already been
       discovered and addressed by GEMS staff. GEMS also said that OJP
       program officers were involved in correspondence surrounding the
       errors and how to prevent them in the future. During audit field work,
       we tested selected Recovery Act reports and could not recalculate the
       amount of FTEs GEMS reported on its quarterly Recovery Act reports
       for the second and third quarters of 2010 based on the information
       GEMS provided. We determined errors occurred and asked GEMS


                                    - 45 - 
 
 


    officials for an explanation. We were told it was because GEMS
    thought it should be reporting positions as FTEs, even though only
    portions of staff salaries were charged to the grants. GEMS did not
    notify OJP of these errors until we brought it to their attention in April
    2011.

    The second reason that GEMS disagreed with this recommendation
    was because Chapter 16 of the ARRA Reporting User Guide states that
    “under no circumstance can the FTE calculations on the past reports be
    changed.” We are not prescribing that GEMS go back and change
    past reports but that GEMS implement procedures that result in the
    accurate submission of Recovery Act Reports.

    This recommendation can be closed when we receive documentation
    demonstrating that these procedures have been implemented.




                                   - 46 - 
 
